No. 20-1322

IN THE

Supreme Court of ®f)t Umteb States;
§

MICHAEL NEELY,
Petitioner,
v.
THE BOEING COMPANY,
Respondent,
§

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Ninth Circuit
§

PETITIONERS’ MOTION FOR LEAVE TO FILE
PETITION FOR REHEARING OUT OF-TIME
§

Michael E. Neely
P.O. BOX 6252
Huntsville, AL 35813
(256) 679-2279
mneelycase@gmail.com

1

Pursuant to Rules of this Court, Petitioner
respectfully Motions for Leave to File Petitioner for
Rehearing Out-of-time.
1. On May 24, 2021 the court denied Petitioners
Writ of certiorari where Petitioner identified serious
public safety issues in Boeing’s commercial aircraft,
specifically 777x, that since the denial serious issues
have been reported substantiating Petitioners six
year old Safety issue claims1 and contradict the lower
court’s decision [s] in this case. Petitioner evidenced
the United States interest and intervention [s] into
these interrelated safety issues to the 737 MAX;
raising question[s] of whistleblower and EEOC rights
violated that the mature circuit discretionary
decisions conflict federal law[s] and standard review.
2. On June 21, 2021, Petitioner Petition the court
for Rehearing of Writ of certiorari through U.S.
commercial mail carrier (Attached).
3. On June 28. 2021, Petitioner received a letter
from the court’s clerk dated June 23, 2021
acknowledging that Petitioner sent his Petition for
Rehearing on June, 21, 2021 through U.S. carrier
furthering the clerk’s office received it on June 23,
2021 herewith “out-of-time”. The clerks letter sites
Rule 44
a petition for rehearing must be
submitted within 25 days after the decision of the
Court. As the petition for writ of certiorari was

1 https://www.seattletimes.com/business/boeing-aerospace/citing-aserious-flight-test-incident-and-lack-of-design-maturity-faa-slowsboeing-777x-certification/

2

denied on May 24, 2021, the petition for rehearing
was due on or before June 18, 202T (Ex A).
4. On June 28, 2021, Petitioner respectfully
responded to the clerk the deadline date per court
Rules was June 21, 2021, not June 18, 2021
exhibiting commercial carrier stamp date and court
receipt date (Ex B).
5. On July 6, 2021, Petitioner received a letter
from the court clerk dated June 30, 2021 granting
leave to the Petitioner to file this Motion for Leave to
File a Petition for Rehearing if he so choose (Ex C).
Petitioner submits this motion one day later.
6. Under Rule 44-2 states a petition for rehearing
writ of certiorari “..shall be filed within 25 days after
the date of the order of denial...’’[emphasized]. Here
the court did not consider the Memorial Day holiday
that places the deadline date on June 19, 2021,
which was on a Saturday, Under Rule 30 “The last
day of the period shall be included, unless it is a
Saturday, Sunday, federal legal holiday listed in 5 U.
S. C. § 6103, ... in which event the period shall
extend until the end of the next day that is not a
Saturday, Sunday, federal legal holiday....”. The
next business day which was not a weekend or
holiday was June 21, 2021 which the court confirmed
Petitioner “originally sent by commercial carrier” in
its June 23, 2021 letter to the Petitioner (ref Ex A).
7. Under Rule 29-2 if the petitioner “...delivered
on or before the last day for fling to a thirdparty
commercial carrier for delivery to the Clerk within 3
calendar days.”. Petitioner delivered the petition to

3

the third-party commercial carrier for delivery on
June 21, 2021 confirmed by the clerks letter[s].
Petitioner made good faith effort assuring the deliver
to the clerk was within “one” business day meeting
Rule 29-2 (ref Ex B exhibits). The court notes in its
letterls] that the clerk did not receive the petition
until June 23, 2021, yet the carrier delivery receipt
differs one day earlier. The Petitioner has no control
of the time the court, and its agents, receive and
deliver to the clerk. Therefore any time after the
courts receipt should not disfavor the Petitioner.
8. The Court has the power, in its discretion and
in the interests of justice, to consider a petition for
rehearing filed outside the formal limits imposed by
Rule 44.2. United States v. Ohio Power Co., 353 U.S.
98 (1957) (granting certiorari out-of-time)-, id. at 99
("We have consistently ruled that the interests in
finality of litigation must yield where the interests of
justice would make unfair the strict application of
our rules."); Robert L. Stern, et al., Supreme Court
Practice § 15.3 (8th Ed. 2002) ("But [it] is not
necessarily the case [that petitions for rehearing
must be filed in time or not at all], provided that the
tardy petition is accompanied by a motion for leave
to file the petition out of time." See also Bowles v.
Russell, 551 U.S. 205, 212 (2007) ("[t]he procedural
rules adopted by the Court for the orderly
transaction of its business are not jurisdictional and
can be relaxed by the Court in the exercise of its
discretion") (quoting Schacht v. United States, 398
U.S. 58, 64 (1970)).
Justice is best served by granting leave to file
the Petition for Rehearing. Most critically, the
Supreme Court nine justice review should have the

4

opportunity to decide whether the mature circuit
conflict [s] presented should be heard in light of the
substantial additional grounds and intervening
circumstances presented in the Petition for
Rehearing.
CONCLUSION
The Petitioner respects the Rules of court and
has made good faith effort to comply. For the
foregoing reasons Petitioner respectfully request the
court grant this motion and accept his filing Petition
for Rehearing.
Respectfully submitted.
Michael E. Neely
P.O. BOX 6252
Huntsville, AL 35813
(256) 679-2279

5

CERTIFICATE OF COUNSEL
I hereby certify that this petition for rehearing is
presented in good faith and not for delay.

Michael Neely
Prafc>e
July 7, 2021

MOTION FOR LEAVE TO FILE PETITION FOR
REHEARING OUT-OF-TIME

EXHIBIT A

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
June 23, 2021

Michael Neely
P.O. Box 6252
Huntsville, AL 35813
RE: Michael Neely v. The Boeing Company
No: 20-1322
Dear Mr. Neely:
The petition for rehearing in the above-entitled case was sent by commercial carrier
June 21, 2021 and received June 23, 2021 and is herewith returned as out-of-time.
Pursuant to Rule 44 of the Rules of this Court, a petition for rehearing must be
submitted within 25 days after the decision of the Court. As the petition for writ of
certiorari was denied on May 24, 2021, the petition for rehearing was due on or before
June 18, 2021.
Your $200.00 check is herewith returned.

Sincerely,
Scott S. Harris, Clerk
By:
Jeffreym
(20^479-3263

Enclosures

MOTION FOR LEAVE TO FILE PETITION FOR
REHEARING OUT-OF-TIME

EXHIBIT B

lil - FedEx Shipment 280620983182 Delivered

M Gmail

Michael Neely <mneelycase@gmail.com>

FedEx Shipment 280620983182 Delivered
1 message
TrackingUpdates@fedex.com <TrackingUpdates@fedex.com>
Reply-To: trackingmail@fedex.com
To: mneelycase@gmail.com

This tracking update has been requested by:
Name:
E-mail.

MICHAEL NEELY
mrieelycase@gmail.com

Our records indicate that the following shipment has been delivered:

Ship date:
Signed for by:
Delivery location:
Delivered to:
Delivery date:
Service type:
Packaging type:
Number of pieces:
Weight:
Special handling/Services
Standard transit:
Tracking number:

Shipper Information
Huntsville
AL
US

Jun 21. 2021
L. JOHNSON
Washington, DC
Shipping/Receiving
Tue, 6/22/2021 9:52 am
FedEx First Overnight®
FedEx® Small Box
1
4.00 lb.
Deliver Weekday
6/22/2021 by 8:30 am

280620983182
Recipient Information
Washington
DC
US

Tue, Jun 22.2021 at 8:55 AM

MOTION FOR LEAVE TO FILE PETITION FOR
REHEARING OUT-OF-TIME

EXHIBIT C

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
June 30, 2021

Michael Neely
P.O. Box 6252
Huntsville, AL 35813
RE: Michael Neely v. The Boeing Company
No: 20-1322
Dear Mr. Neely:
The petition for rehearing in the above-entitled case, originally sent by commercial
carrier June 21, 2021, and received again June 30, 2021, is herewith returned as out-oftime for the reasons stated in prior correspondence.
Pursuant to Rule 44 of the Rules of this Court, a petition for rehearing must be
submitted within 25 days after the decision of the Court. As the petition for writ of
certiorari was denied on May 24, 2021, the petition for rehearing was due on or before
June 18,2021.
If you are seeking to file a motion for leave to file a petition for rehearing, you may
submit the motion with the petition for rehearing.
Your $200.00 check is herewith returned.

Sincerely,
Scott S. Harris, Clerk
By:
Jeffri
i:
(202) 479-3263

Enclosures

